Go rv'eeTfcd
No. 19-3043(UNA)

In The
SUPREME COURT OF THE UNITED STATES
JEAN DUFORT BAPTICHON,
Petitioner,
V.
The United States and the Republican National Party
Respondents

On Petition for Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit
PETITION FOR RECONSIDERATION

Jean Dufort Baptichon
Petitioner Prose
188 N Long Beach Avenue
Freeport, New York 11520
ibantichon@gmail.com

RECEIVED
SEP 1 6 2020

ISSUES PRESENTED
1. What, in this case, are the appropriate inquiry for determining when an in forma
pauperis litigant's factual allegations justify a § 1915(d) dismissal for frivolousness.
2. What is the proper standard of appellate review of such a dismissal?
3. Whether any of the district court's procedural and evidentiary rulings constituted
an abuse of discretion requiring reversal of the judgment.
4. Whether the district court has denied the plaintiff-appellant’s right to counsel as an
in forma pauperis litigant.
5. What standard governs the district court’s discretion to grant or deny
reconsideration and amendment in the case at bar?

1

LIST OF ALL PROCEEDINGS IN FEDERAL TRIAL AND APPELLATE COURTS
RELATED TO THE CASE IN THIS COURT
Docket No. 19-1241 C
The United States Court of Federal Claims
Jean Dufort Baptichon v. United States
Date of Entry of the Judgment: 09/26/2019
Docket No. 2009-5071
United States Court of Appeals for the Federal Circuit
Baptichon v. United States
Date of Entry of the Judgment: August 7, 2009
Docket No. 19-3043 (UNA)
United States District Court for the District of Columbia
Jean Dufort Baptichon v. United States, et al.
Date of Entry of the Judgment: Nov. 20, 2019
Docket No. 19-3043 (UNA)
United States District Court for the District of Columbia
Jean Dufort Baptichon v. United States, et al.
Date of Entry of the Judgment: January 30, 2020
Docket No. 20- 5031
United States Court of Appeals for the District of Columbia
Jean Dufort Baptichon v. United States, et al.
Date of Entry of the Judgment: June 23, 2020

2

TABLE OF CONTENTS
Pages
ISSUES PRESENTED

1

TABLE OF AUTHORITIES

4

OTHER AUTHORITIES

7

JURISDICTION

8

PRELIMINARY STATEMENT

8

STATEMENT OF THE CASE

8

ARGUMENT

10

CONCLUSION

25

APPENDICES
APPEMDIX (i)....

Judgment from the United States Court of Federal Claims and
Judgment of the Court of Appeals for the Federal Circuit

APPEMDIX (ii)

Judgments of the District Court’ for the District of Columbia’s
granting in forma pauperis and dismissing complaint

APPEMDIX (iii) ... Judgments of the District Court’ for the District of Columbia’s
Dismissing the petitioner’s motion for reconsideration
APPEMDIX (iv) ... .Judgment of the United States Court Appeals sought to be reviewed
APPENDIX (v)

Photos of the Presidential Medal of Merit

APPENDIX (vi)...... Petitioner’s 2004 Notarized letter to the FBI
APPENDIX (vii) ....Letter from the United States Senator

3

TABLE OF AUTHORITIES
Pages

CASES:
Adkins v. E.I. DuPont de Nemours & Co.,
335 U.S. 331, 342 (1948).............................

11

Bauers v. Heisel.
361 F.2d 581, 584
(3d Cir. 1966)
cert, denied, 386 U.S. 1021 (1967) ,,,

17

*Bayron v. Trudeau,
702 F.2d 43, 45
(2d Cir. 1983)..........

15, 19

*Boag v.MacDougall
454 U.S. 364 (1982)

25

Buddie v. Connecticut.
401 U.S. 371 (1971) ....

19

Cameron v. Fogarty.
705 F.2d 676, 678
(2d Cir. 1983)...........

17

Cay v. Estelle.
789 F.2d 318, 323
(5th Cir. 1986).....

18

Connedge v. United States.
369 U.S. 438, 447 (1962); ..

15, 19

Coston v. Sears. Roebuck & Co..
556 F.2d 1305, 1308
(5th Cir. 1977)..........................

21

Dear v. Rathie.
485 F.2d 558, 560
(7th Cir. 1973) ....

19, 20

*Denton v. Hernandez.
504 U.S. 25, (1992)....

25

Estelle v. Gamble.
429 U.S. 97, 112 (1976);

. 17
4

Firestone v. Firestone,
76 F.3d 1205, 1208
D.C. Cir. 1996). Per curiam

10

Flint v. Havnes,
651 F.2d 970
(4th Cir. 1981),
cert, denied, 454 U.S. 1151 (1982)

15, 19

*Foman v. Davis,
371 U.S. 178
(1962) .........

23

Franklin v. Murphy,
745 F.2d 1221
(9th Cir. 1984);........

17, 18

Franklin v. Oregon,
563 F. Supp. 1310
(D. Or. 1983), aff'd in part and
rev'd in part sub nom..............

17, 18

*Franklin v. Oregon.
662 F.2d 1337, 1341
(9th Cir. 1981)............

17, 20

Frankos v. LaVallee.
535 F.2d 1346, 1347
(2d Cir.), cert, denied, 429 U.S. 918 (1976)

17

Goldberg v. Kelly.
397 U.S. 254, 270 (1970);

21

Goldfarb v. Virginia State Bar.
421 U.S. 773, 792 (1975)

20

*Haines v. Kerner,
404 U.S. 519, 92
S. Ct. 595, 30 L.Ed.2d 652 (1972)

25

Horsey v. Asher.
741 F.2d 209, 211 11, 13, 14
8th Cir. 1984)........................

15, 19

Lewis v. New York.
547 F.2d 4,
5

(2d Cir. 1976)

19

Marks v. Calendine.
80 F.R.D. 24, 27
(N.D. W. Va. 1978), aff'd sub nom

15

*McTeague v. Sosnowski,
617 F.2d 1016, 1019
(3d Cir. 1980)...................

15, 19

Nash v. Black.
781 F.2d 665, 668
(8th Cir. 1986) ...

19.

Neitzke v. Williams.
490 U.S.319, 325 (1989)

11, 12

*Nichols v. Schubert.
499 F.2d 946, 947
(7th Cir. 1974)...........

16, 19

Redwood v. Council of D.C.
679 F.2d 931, 934
(D.C. Cir. 1982); ..

19

Ron v. Wilkinson.
565 F.2d 1254, 1258
(2d Cir. 1977)..........

18

Schlagenhauf v. Holder.
379 U.S. 104, 114 (1964) > • >

21

*Tingler v. Marshall.
16 F.2d 1109, 1112
(6th Cir. 1983);.........

16, 19, 20

Wartman v. Branch 7. Civil Div., County Ct.
510 F.2d 130, 132,134
(7th Cir. 1975).....................................................
806 F.2d 380
(2d Cir. 1986)

. 19

17

“Authorities upon which we chiefly rely are marked with asterisks.”
6

OTHER AUTHORITIES
§ 1915(d)

10, 11, 12, 14, 15, 16,, 18, 19, 26

§1915(a),

14

*Section 1915(c)

18

28U.S.C. 2101(e).

8

28 U.S.C. 1254(1)

8
22, 23

*Federal Rule of Civil Procedure 15
Federal Rule of Appellate Procedure 38

10

Federal Rule of Civil Procedure 12(b)(6)

12, 23
17, 18, 19

*Fed. R. Civ. P. 4(a)
1983 amendments to Rule 4

18

Rule 4(c) (2) (B) (i)

18

Comment: State Prisoners. Federal Courts, and Playing by the Rules An
Analysis of the Aldisert Committee's Recommended Procedures for Handling
Prisoner Civil Rights Cases, 5 U. Puget Sound L. Rev. 131, 147 (1981)
[hereinafter Playing by the Rules] ............................

18

Legal Services Corporation Act of 1974, 42 U.S.C. §§ 2996-29961 (1976) &
Supp. Ill (1979); 18 U.S.C. § 3006A (1970); N.Y. Jud. Law § 35(1) (McKinney
Supp. 1980); N.Y. County Law §§ 722 to 722-f (McKinney Supp. 1980)
(criminal, habeas corpus and civil retention matters); N.Y. Fam. Ct. Act §§ 245,
248, 261, 262 (McKinney 1975) (specified family court matters)....................

21

*[RPC 3.1 comment 2]

20

The thirteenth amendment prohibition of
involuntary servitude..................................

22

“Other Authorities upon which we chiefly rely are marked with asterisks.”
7

JURISDICTION
The judgment of the district court was entered on November 20, 2009, (Appendix E). The
plaintiff filed a motion to reconsider the district court’s decision of November 20, 2019 on
November 29, 2019 and another judgment of the district court denying that motion was
entered on entered on January 30, 2020, (Appendix A). A notice of appeal was filed on
February 7, 2020, and the case was docketed in the court of appeals on February 18, 2020
(D.C. Cir., No. 20-5031). Petitioner filed his appeal on March 13, 2020. Petitioner is now
filing herein a petition for writ of certiorari to the United States Court of Appeals for the
District of Columbia Circuit for a rehearing en banc. 28 U.S.C. 2101(e). The jurisdiction of
this Court is invoked under 28 U.S.C. 1254(1).
PRELIMINARY STATEMENT
On June 23, 2020, the United States Court of Appeals for the District of Columbia
released an order denying plaintiff-appellant’s appeal for remand requesting an answer
from the defendants. The accrual of intervening facts and circumstances create an
appearance and a reality that an indigent plaintiff like the petitioner who filed a claim in
forma pauperis in the district court of the United States is being denied equal justice
under the law, as well as the absence of sound judicial decision making. The plaintiffappellant respectfully asks this Court to reconsider the court's denial of his appeal for a
remand requesting an answer from the defendants
STATEMENT OF THE CASE
In his complaint, the in-forma pauperis plaintiff-appellant factually alleged that the
“Medal of Merit” has been presented to him by defendants’ president in appreciation for
his support as a member of their “Task Force;” (see Appendix B annexed hereto as
8

evidence); that this “Medal of Merit” is signed by George Bush, President; that the
appellant reported to the Federal Bureau of Investigation (FBI) that another “Medal of
Merit” presented to him by then President Ronald Reagan was embezzled by one of the
defendants’ banks, i.e., “The Citizens Bank of Maryland, a/k/a Citizen National Bank of
Maryland.” (See Appendix C annexed hereto as evidence). As evidenced by one of the
letters from the defendants’ senator written to the plaintiff-appellant, the plaintiffappellant respectfully asks this Court to take judicial notice that “Military Decorations,
Medals, Congressional Pins, Security Clearance Passes, even Rotary Pins, they all
indicate accomplishment, achievement, honor and distinction.” (See Appendix D annexed
hereto as reference). However each of them has its own meaning, purposes and values that
are for its recipient to determine and appreciate even where no stated value, whether
monetary or otherwise, is mentioned on the face of the instrument or intrinsically. On that
basis the appellant’s complaint does not lack an arguable basis in law or in fact because
the monetary value he attributed to said “Medal of Merit” can only be assessed by
interpreting the symbols on the “Medal” and their meanings in the presidential context,
for want of definition. For the district court to rule that the appellant’s complaint is
frivolous is to contradict the defendants’ senator who wrote that “[T]here are some people
in this country who only complain about the way things are and never do anything about
it” and that the appellant shows “that he is willing to take a stand for his beliefs and work
hard to make them a reality!” For the court of appeals to affirm the district court’s ruling
that the appellant’s complaint is frivolous is to conflict with the defendants’ senator who
wrote that it is the appellant’s “character and leadership that make him such an
important part of the NRSC,” and why the senator believes the plaintiff-appellant is “so
9

deserving of our NRSC campaign ‘Lapel Pin, that if there is one thing America needs
today, it’s more people with” the plaintiffs appellant’s “character and leadership.
Accordingly, the in-forma pauperis plaintiff-appellant's factual allegations do not justify a
§ 1915(d) dismissal for frivolousness as to the monetary value of the Presidential Medal of
Merit, which the plaintiff-appellant appraised and believes to be on a spectrum of $20 at
one end, in which case the district court would not have dismissed the complaint for
frivolousness, and $20 trillion at the other end of the spectrum with a median value of $20
billion in which case the district court ruled that the complaint is frivolous and the court of
appeals affirmed without a clear definition..
ARGUMENT
THE IN FORMA PAUPERIS PLAINTIFF-APPELLANT'S FACTUAL
ALLEGATIONS DO NOT JUSTIFY A $ 1915(D) DISMISSAL FOR
FRIVOLOUSNESS
.1. As defined, frivolous means lacking a legal basis or legal merit, not serious, and not
reasonably purposeful, see Black’s Law Dictionary, Seventh edition. The Federal Rule of
Appellate Procedure 38 provides for the award of damages and costs if the appellate court
determines that an appeal is frivolous, as the Court of Appeals for the District of Columbia
Circuit has concurred that the plaintiff-appellant’s lawsuit has no legal basis and was filed
to either harass or extort money from the defendants in this case and affirmed the district
court’s dismissal of the case without leave to amend on the grounds that the appellant’s
allegations are frivolous, and that “appellant has not demonstrated that the district court
abused its discretion in denying his motion to alter or amend the judgement, citing
Firestone v. Firestone. 76 F. 3d 1205, 1208 (D.C. Cir. 1996) (per Curiam).” (See Appendix
A annexed hereto).
10

As initially cited by the district court, Neitzke v. Williams, 490 U.S.319, 325 (1989) and
Firestone v. Firestone, id, both cases are distinguishable in facts from the case at bar and
are similar only to the extent that both were dismissed for frivolousness by the district
court. In enacting the federal in forma pauperis statute, Congress apparently
"intended to guarantee that no citizen shall be denied an opportunity to commence,
prosecute, or defend an action, civil or criminal, in any court of the United States, solely
because poverty makes it impossible ... to pay or secure the costs " of litigation. Adkins v.
E.I. DuPont de Nemours & Co.. 335 U.S. 331, 342 (1948) (internal quotations omitted). At
the same time that it sought to lower judicial access barriers to the indigent, however,
Congress recognized that "a litigant whose filing fees and court costs are assumed by the
public, unlike a paying litigant, lacks an economic incentive to refrain from filing frivolous,
malicious, or repetitive lawsuits." Neitzke. supra, at 324. In response to this concern,
Congress included subsection (d) as part of the statute, which allows the courts to dismiss
an in forma pauperis complaint "if satisfied that the action is frivolous or malicious." This
recognition of the lack of “an economic incentive to refrain from filing frivolous,
malicious, or repetitive lawsuits in" Neitzke. supra, at 324,” and the inclusion of
subsection (d) by Congress are flawed and biased reasoning to further discrimination
against poor litigants who most likely are blacks, and most likely to be arrested, and
unrepresented. Understandably, Congress made it to appear that it “intended to
guarantee that no citizen shall be denied the opportunity to commence, prosecute, or
defend an action, civil or criminal, in any court of the United States solely because poverty
makes it impossible to pay or secure the cost of litigation” by enacting Section 1915, but
then subsection (d) as a pretext to deny that opportunity, which Congress did not really
11

intend to guarantee in the first place, by authorizing the courts to dismiss an in forma
pauperis complaint "if satisfied that the action is frivolous or malicious." Neitzke v.
Williams, supra, provided the courts with their first occasion to construe the
meaning of "frivolous" under § 1915(d). In that case, the courts held that "a complaint,
containing as it does both factual allegations and legal conclusions, is frivolous where it
lacks an arguable basis either in law or in fact." Id at 325. In Neitzke. the courts were
concerned with the proper standard for determining frivolousness of legal conclusions, and
determined that a complaint filed in forma pauperis which fails to state a claim under
Federal Rule of Civil Procedure 12(b)(6) may nonetheless have "an arguable basis in law"
precluding dismissal under § 1915(d). Neitzke. 490 U.S., at 328-329. In so holding, the
courts observed that the in forma pauperis statute, unlike Rule 12(b)(6), "accords judges
not only the authority to dismiss a claim based on an indisputably meritless legal theory,
but also the unusual power to pierce the veil of the complaint's factual allegations and
dismiss those claims whose factual contentions are clearly baseless." Id., at 327.
"Examples of the latter class," the courts said, "are claims describing fantastic or
delusional scenarios, claims with which federal district judges are all too familiar." Id., at
328. Arguably, assuming that the plaintiff-appellant’s claims or complaint are claims
describing fantastic or delusional scenarios, these claims are products of the defendants
and the delusional scenarios are injuries caused by the defendants in issuing such
“Presidential Medal of Merit.” The case at bar is distinguished from those claims
describing fantastic or delusional scenarios, claims, and federal judges are not familiar
with the claims at bar because it is unprecedented and the claims therein were prompted
solely by actions of the defendants whose presentment of the “Presidential Medal of Merit”
12

to the plaintiff-appellant may be unconstitutional, emphasis added, which affected the
plaintiff-appellant and which the plaintiff-appellant did not solicit, nor requested or
demanded from the defendants. Hence, federal judges are not familiar with the case
at bar because it is unprecedented and was filed in good faith.
Furthermore, the claims that the petitioner advances are not wholly frivolous and are in
fact meritorious because arguably, there is a difference between a “medal for merit” and a
“medal of merit.” For the former, the lower courts (specifically the Court of Federal
Claims) correctly stated that:
“Congress created a decoration known as the “Medal for Merit” in 1942,
Act of July 20, 1942, Ch. 508 §2(2), 56 Stat. 662, 663 (codified as
amended at 10 U.S.C. §1122 (2018). In doing so, Congress empowered
the President to award the Medal for Merit to civilian who had
distinguished themselves by exceptionally meritorious conduct in the
performance of outstanding services” in prosecuting World War II. Id.
Congress specified that the President’s decision to award the Medal for
Merit was discretionary and would be carried out “under such rules and
regulations as [the President] shall prescribe;” that pursuant to that
authority, three executive orders were issued pertaining to the Medal
for Merit: Executive Order No. 9857A: Medal for Merit, 12 Fed. Reg.
3538 (May 27, 1947); Exec. Order 9331: Medal for Merit, 8 Fed. Reg.
5423 (April 19, 1943); Exec, Order 9286: Medal for Merit, 7 Fed. Reg.
10899 (Dec. 24, 1942).
But, for the latter, Congress did not create a decoration known as the “Medal of
Merit” under any act or authority to empower either President Reagan or
President Bush to award the “Medal of Merit” to the petitioner. As the lower
courts (the Court of Federal Claims) observed that the petitioner appears to
conflate the “Medal for Merit” with the “Medal of Merit” award that the
petitioner has in fact received from both Presidents Reagan and Bush, the “Medal
of Merit” is an entirely different award altogether. Hence, granted such true
distinction, the lower courts erroneously failed to identify any authority created
13

by Congress that empowers the Presidents to award the “Medal of Merit” award
as presidents to the Petitioner during their presidency. Consequently, such lack
of statutory or congressional authority to issue such “Medal of Merit” award to
the petitioner is a violation of the Constitutional Bicameralism Principle, thereby
making such issuance of such “Medal of Merit” award to the petitioner
unconstitutional and a sua sponte dismissal for failure of the petitioner to state a
claim does violate due process as his claim is timely because it was filed within
the statute of limitation upon discovering all the continuing wrongs done to him
by the defendants and is tenable as a matter of law because at trial the petitioner
can prove in fact that he is entitled for relief because he had suffered injuries in
fact. Therefore, the in forma pauperis plaintiff-appellant's factual allegation do
not justify a § 1915(d) dismissal for frivolousness.
THE PROPER STANDARD OF APPELLATE REVIEW OF PLAINTIFFAPPELLANT’S COMPLAINT’S DISMISSAL THAT THE COURT OF APPEALS
SHOULD HAVE USED IS THE POST-FILING DELAYED REVIEW
2, There are three approaches that have emerged that stem primarily from different
interpretations of sections 1915(a) and 1915(d) and that would be proper standards of
appellate review of the district court’s dismissal of the plaintiff-appellant’s complaint: (1)
post-filing immediate dismissal, (2) post-filing delayed dismissal and (3) pre-filing
dismissal. The first procedure is not applicable in this case because the plaintiff-appellant
case is patently not frivolous and his allegations are not untrue. The third procedure also
is not applicable in this case because the district court did not simultaneously consider
both issues of poverty and frivolousness at the initial review of the in forma pauperis
application, which the statutory language, earlier judicial analysis of legislative history
14

and policy considerations favor. However, the proper standard of appellate review of
plaintiff-appellant’s complaint’s dismissal that the court of appeals should have used is the
post-filing delayed review. “Under the procedure of post-filing delayed review, a complaint
is docketed and the motion to proceed in forma pauperis is granted, if the plaintiff meets
the financial criteria. A court, however, cannot dismiss the complaint on grounds of
frivolousness until the issuance of process and the responsive pleadings.” E.g., Bavron v.
Trudeau. 702 F.2d 43, 45 (2d Cir. 1983). In the case at bar, the plaintiff-appellant’s motion
to proceed in forma pauperis was granted as the plaintiff-appellant meets the financial
criteria. Although courts using this approach acknowledge that frivolous suits waste
judicial resources, they maintain that IFP plaintiffs should receive the same procedural
protections afforded non-indigent plaintiffs. See McTeague v. Sosnowski. 617 F.2d 1016,
1019 (3d Cir. 1980) (despite concerns of court congestion and financial burden to public,
IFP complaints cannot be dismissed summarily); Dear v. Rathie. 485 F.2d 558, 560 (7th
Cir. 1973) (although that court was "not unsympathetic" to problem of increasing numbers
of'"professional litigants,'" it held that IFP plaintiffs were entitled to responsive
pleadings). The purpose of section 1915 is to afford indigents the same services of the
courts as non-indigent litigants. See Marks v. Calendine. 80 F.R.D. 24, 27 (N.D. W. Va.
1978), aff'd sub nom. Flint v. Haynes. 651 F.2d 970 (4th Cir. 1981), cert, denied, 454 U.S.
1151 (1982); see also Connedge v. United States. 369 U.S. 438, 447 (1962) ("The point of
equating the test for allowing a pauper's appeal to the test for dismissing paid cases, is to
assure equality of consideration for all litigants."); Horsey v. Asher. 741 F.2d 209, 211 (8th
Cir. 1984) (section 1915 must be interpreted to afford IFP complaints same standards
applicable to paid complaints); McTeague v. Sosnowski. 617 F.2d 1016, 1019 (3d Cir. 1980)
15

(Congress, in enacting section 1915, mandated that courts should apply same dismissal
procedures to IFP plaintiffs as non-indigent plaintiffs, "[otherwise the scales of justice will
be tilted against [the] ... poor"). After all, moral concern is as important as monetary
concern to the public.
The procedure under delayed post-filing dismissal requires the issuance of a summons and
complaint once the complaint has been filed. See Tingler v. Marshall, 716 F.2d 1109, 1112
(6th Cir. 1983); Nichols v. Schubert. 499 F.2d 946, 947 (7th Cir. 1974). If the defendant
moves to dismiss, the IFP plaintiff is notified and given an opportunity to oppose the
motion. See Tingler v. Marshall id. However, in this case the defendants were not given
the opportunity by the district court to answer since they have clouts over their judges In
the event of dismissal, the court must provide the plaintiff with a statement of the
grounds for dismissal and afford the plaintiff an opportunity to cure by amending the
complaint, see Tingler v. Marshall. 716 F.2d 1109, 1112 (6th Cir. 1983), which the
district court also failed to do in this case. The district court did not provide the
plaintiff-appellant with a statement of the grounds for dismissal except a boiler-plate
dismissal for frivolousness, which does not actually state the frivolous fact or law, and did
not afford the plaintiff-appellant the opportunity to cure by amending his complaint.
Courts reason that responsive pleadings are essential to the preservation of the
adversarial scheme. They point out that the traditional adversarial relationship is
undermined when the court ceases to act as a neutral arbiter and actively participates at
the pleading stage, as the district court did in this case. See id. at 1111 (holding dismissal
on merits prior to responsive pleadings improper).

16

THE DISTRICT COURT’S PROCEDURAL AND EVIDENTIARY RULINGS
CONSTITUTED AN ABUSE OF DISCRETION REQUIRING REVERSAL OF THE
JUDGMENT
3. In this case, the district court and the court of appeals “appear to be adopting an
inquisitorial role” Lewis v. New York, 547 F.2d 4, (2d Cir. 1976) (courts should "avoid an
inquisitorial role"), or acting as a proponent for the defendant. Thus, courts find it
inappropriate to prevent defendants from making responsive pleadings. Moreover, under
Rule 4(a) after the complaint is filed, a court clerk must issue a summons to a nonindigent plaintiff who becomes responsible for service thereafter on defendant parties.
Fed. R. Civ. P. 4(a). See Cameron v. Fogarty. 705 F.2d 676, 678 (2d Cir. 1983)
("Procedurally, service of process of a filed complaint is not discretionary. [Rules] 3, 4(a)."),
aff'd, 806 F.2d 380 (2d Cir. 1986); Franklin v. Oregon. 662 F.2d 1337, 1341 (9th Cir. 1981)
("[L]iteral reading of [Rule] 4(a) supports the proposition that a summons must be issued
before a dismissal for failure to state a claim ...."), on remand, Franklin v. Oregon. 563 F.
Supp. 1310 (D. Or. 1983), aff'd in part and rev'd in part sub nom Franklin v. Murphy. 745
F.2d 1221 (9th Cir. 1984); Frankos v. LaVallee, 535 F.2d 1346, 1347 (2d Cir.) (complaint
dismissed erroneously "prior to service of summons as required by [Rule] 4(a)"), cert.
denied, 429 U.S. 918 (1976); Dear v. Rathie, 485 F.2d 558 560 (7th Cir. 1973) (practice of
dismissal before issuance of process "is in clear conflict with Rule 4(a) ... which imposes a
duty on the Clerk to issue the summons 'forthwith"'); see also Estelle v. Gamble. 429 U.S.
97, 112 (1976) (Stevens, J., dissenting) (although complaint filed, "instead of causing it to
be served on the defendants as required by [Rule] 4, the Clerk ... dismissed [it]"); Bauers v.
Heisel, 361 F.2d 581, 584 (3d Cir. 1966) (expressing disfavor with immediate post-filing
dismissal because "the requirements of Rule 4(a) are explicit"), cert, denied, 386 U.S. 1021
17

(1967); Comment, State Prisoners. Federal Courts, and Playing by the Rules An Analysis
of the Aldisert Committee's Recommended Procedures for Handling Prisoner Civil Rights
Cases, 5 U. Puget Sound L. Rev. 131, 147 (1981) [hereinafter Playing by the Rules] (under
the Rules "service of process is not discretionary"). But see Cav v. Estelle. 789 F.2d 318
323 (5th Cir. 1986) (IFP proceedings can be dismissed when it becomes clear merit is
lacking); Ron v. Wilkinson. 565 F.2d 1254, 1258 (2d Cir. 1977) (automatic service of IFP
complaints would place undue hardship on public). One author argues, however, that the
1983 amendments to Rule 4 (specifically Rule 4(c) (2) (B) (i)) that authorize a court to
serve process for IFP plaintiffs also give the court discretion to determine if summons
should issue. These amendments, however, merely indicate that the court is responsible
for delivery of service. They do not grant the court discretion to determine if process
should issue. See Franklin v. Oregon. 563 F. Supp. 1310, 1317 (D. Or. 1983) (when
proceeding in forma pauperis, procedure for issuance of summonses and service requires
court to provide IFP plaintiff, or his attorney, with necessary forms; then plaintiff
"forward[s] the completed forms to the U.S. Marshal, or a substitute, for service"), aff'd in
part and rev'd in part sub nom. Franklin v. Murphy. 745 F.2d 1221 (9th Cir. 1984).
Section 1915(c), however, directs officers of the court to issue summons when an IFP
complaint is filed, and to serve process for IFP plaintiffs. Neither the Rules nor the IFP
statute vests a judge with discretion to intervene at this stage of the pleadings to
determine whether the clerk may issue a summons." Thus, courts reason that under the
post-filing delayed dismissal approach an IFP complaint may not be dismissed before
issuance of process. Therefore, the District Court in the case at bar has dismissed
erroneously the plaintiff-appellant’s complaint "prior to service of summons as required by
18

[Rule] 4(a). See Wartman v. Branch 7. Civil Div.. County Ct. 510 F.2d 130, 132, 134 (7th
Cir. 1975). Other courts have expressed a preference for responsive pleadings, but permit
immediate dismissal in some cases. See Tingler v. Marshall. 716 F.2d 1109, 1110-11 (6th
Cir. 1983); Bavron v. Trudeau. 702 F.2d 43, 45 (2d Cir. 1983); Redwood v. Council of D.C..
679 F.2d 931, 934 (D.C. Cir. 1982); McTeague v. Sosnowski. 617 F.2d 1016, 1019 (3d Cir.
1980), (despite concerns of court congestion and financial burden to public, IFP
complaints cannot be dismissed summarily); Dear v. Rathie, 485 F.2d 558, 560 (7th Cir.
1973) (although that court was "not unsympathetic" to problem of increasing numbers of
'"professional litigants,'" it held that IFP plaintiffs were entitled to responsive pleadings).
The purpose of section 1915 is to afford indigents the same services of the courts as nonindigent litigants. See Marks v. Calendine. 80 F.R.D. 24, 27 (N.D. W. Va. 1978), aff'd sub
nom. Flint v. Haynes. 651 F.2d 970 (4th Cir. 1981), cert, denied, 454 U.S. 1151 (1982); see
also Coppedge v. United States. 369 U.S. 438, 447 (1962) ("The point of equating the test
for allowing a pauper's appeal to the test for dismissing paid cases, is to assure equality of
consideration for all litigants."); Horsey v. Asher. 741 F.2d 209, 211 (8th Cir. 1984) (section
1915 must be interpreted to afford IFP complaints same standards applicable to paid
complaints); McTeague v. Sosnowski. Id. (Congress, in enacting section 1915, mandated
that courts should apply same dismissal procedures to IFP plaintiffs as non-indigent
plaintiffs, "[o]therwise the scales of justice will be tilted against [the] ... poor"). See Tingler
v. Marshall. 716 F.2d 1109, 1112 (6th Cir. 1983); Nichols v. Schubert. 499 F.2d 946, 947
(7th Cir. 1974).See Tingler v. Marshall, See id. at 1111 (holding dismissal on merits prior
to responsive pleadings improper). Lewis v. New York, id. (Courts should "avoid an
inquisitorial role"). Nash v. Black. 781 F.2d 665, 668 (8th Cir. 1986) (expressing disfavor
19

with immediate dismissal procedures because "district court is cast in the role of a
proponent for the defense, rather than an independent entity"); accord Tingler v.
Marshall, (citing Franklin v. Oregon. 662 F.2d 1337, 1342 (9th Cir. 1981)). Reluctant to act
as protectors for the defendant, these courts maintain that a defendant's remedies lie in
civil actions for abuse of process, or in equity for injunctive relief. See Dear v. Rathie. 485
F.2d 558, 560 (7th Cir. 1973). Hence, the district court abused its discretion by dismissing
the plaintiff-appellant’s complaint without leave to amend and its procedural and
evidentiary rulings constituted an abuse of discretion requiring reversal of the judgment.
THE DISTRICT COURT HAS DENIED PLAINTIFF-APPELLANT’S RIGHT
TO COUNSEL AS AN IN FORMA PAUPERIS LITIGANT
4. The district court has denied plaintiff-appellant’s right to counsel as an in forma
pauperis. Under the rule, a lawyer must not bring or defend a proceeding, nor assert or
controvert an issue therein, unless there is a basis in law and fact for doing so that is not
frivolous (e.g., a good faith argument for an extension, modification or reversal of existing
law), and must inform herself of the facts and applicable law of the case and determine
that she can make a good faith argument supportive of the client’s position. Compliance
with which is abound in the case at bar. However, it is not necessary for the lawyer to
believe in the ultimate success of the action. “Also an action or defense is not frivolous
merely because the facts have not first been fully substantiated or because the lawyer
expects to develop vital evidence only through discovery” [RPC 3.1, comment 2]. Goldfarb
v. Virginia State Bar. 421 U.S. 773, 792 (1975).
The layman's, (here the plaintiff-appellant’s) inability to overcome the intricacy of the
adjudicative process, which gives rise to a constitutional guarantee of counsel in criminal
prosecutions, equally impedes effective access of uncounseled litigants, like the plaintiff20

appellant here, to the judicial process in civil cases. See Goldberg v. Kelly, 397 U.S. 254,
270 (1970); Coston v. Sears. Roebuck & Co., 556 F.2d 1305, 1308 (5th Cir. 1977). Because
states hold a monopoly over techniques of dispute settlement in certain civil cases, the
states are forbidden in such instances to impose court fees that have the effect of denying
indigents access to the courts. See Buddie v. Connecticut. 401 U.S. 371 (1971) (divorce
decrees). A state may reasonably determine that adjudicative complexity, although not
rising to the level of a constitutional violation, impedes the access of uncounseled
indigents like the plaintiff-appellant in this case, to expeditious resolution of civil
disputes. The resultant state interest in providing attorneys to impecunious litigants in
civil suits like the impecunious plaintiff-appellant in this civil case, will not be diminished
in the case of a plaintiff who voluntarily comes into court, inasmuch as his inability to
redress an injury causes an involuntary loss equal to that of a civil defendant who is
unable effectively to protect his interests in court. See Schlagenhauf v. Holder. 379 U.S.
104, 114 (1964).
An affirmative finding by either the district court or the court of appeals that assistance of
counsel to the plaintiff-appellant would advance the fairness of the proceeding was and is
necessary, in this civil case, to ensure the applicability of the public service exception. In
the case at bar the district court did not use its discretion to appoint legal counsel to the in
forma pauperis plaintiff-appellant the way it used its discretion to dismiss the complaint,
although the plaintiffs motion to proceed in forma pauperis was granted by the district
court, while there exists state and federally funded programs to provide legal assistance to
the poor in civil cases," see, e.g., Legal Services Corporation Act of 1974, 42 U.S.C. §§
2996-29961 (1976 & Supp. Ill 1979); 18 U.S.C. § 3006A (1970); N.Y. Jud. Law § 35(1)
21

(McKinney Supp. 1980); N.Y. County Law §§ 722 to 722-f (McKinney Supp. 1980)
(criminal, habeas corpus and civil retention matters); N.Y. Fam. Ct. Act §§ 245, 248, 261
262 (McKinney 1975) (specified family court matters), affirms that such assistance serves
a public purpose. If it did not, such expenditures would be improper exercises of
governmental spending powers. The district court has denied the plaintiff-appellant’s
right to counsel as an in forma pauperis litigant.
Prudential concern for minimizing the burden upon members of the legal profession
militates for judicious use by the lower courts of their authority to compel an attorney to
represent indigent plaintiff-appellant in this civil case. Although exercises of this
authority are not immune from constitutional scrutiny, neither are they unconstitutional.
Appointment of an attorney to represent the plaintiff-appellant in this civil case does not
violate due process. The thirteenth amendment prohibition of involuntary servitude does
not limit government authority to compel public services of this nature. Moreover, the
absence of compensation for legal assistance rendered upon court appointment does not
contravene the takings clause because of the reciprocal economic benefit granted attorneys
by virtue of their monopoly of practice in the state-created adjudicative system. The
district court has denied the plaintiff-appellant’s right to counsel as an in forma pauperis
litigant.
WHEN A DISTRICT COURT DISMISSES A COMPLAINT WITHOUT LEAVE
TO AMEND. A SUBSEQUENT MOTION FOR LEAVE TO AMEND SHOULD
BE JUDGED BY ORDINARY FEDERAL RULE OF CIVIL PROCEDURE
15(A)(2) STANDARDS (AS THE SECOND. FOURTH. FIFTH. SEVENTH.
AND ELEVENTH CIRCUITS HAVE HELD)
5. The district court has dismissed the plaintiff-appellant’s complaint without leave to
amend. “Under Federal Rule of Civil Procedure 15, leave to amend a complaint is “freely
22

give[n],” to further the goal that claims be tested “on the merits” rather than dismissed on
technicalities. Foman v. Davis. 371 U.S. 178, 182 (1962). When a complaint is dismissed
without leave to amend, a plaintiff who wishes to amend does so by moving to reconsider
in order to permit amendment, see id., which the plaintiff-appellant has done in this case
and was denied by the district court.
“Despite Foman s decision to apply Rule 15’s liberal standard to post­
dismissal motions for leave to amend, the courts of appeals are broadly
and deeply divided about what standard governs a district court’s
discretion to grant or deny reconsideration and amendment in that
circumstance. Five circuits have held, in line with Foman. “that Rule
15(a) (2)” governs, because a party’s ability to have her claim tested on
the merits should not depend on whether the district court chose to grant
leave to amend when it dismissed the complaint. Four circuits (including
the court of appeals here) have held that a post-judgment motion for
leave to amend must satisfy a stricter standard than a pre-judgment
motion seeking the same result. One circuit has issued contradictory
opinions on this question. The conflict implicates basic principles of
federal pleading procedure. If, as the First, Sixth, Eighth, and Ninth
Circuits hold, the standard for amendment differs based on whether the
district court happened to grant leave to amend upon dismissal, then, a
litigant’s window of opportunity to plead correctly and the consequences
for inadequate pleading will vary from judge to judge. That result
diminishes both predictability and fairness, as different plaintiffs in the
same courthouse will be held to different standards. The better rule is
that applied by this Court in Foman and by the Second, Fourth, Fifth,
Seventh, and Eleventh Circuits. Rule 15’s command that leave to amend
be freely given (except in case of futility, prejudice, undue delay, or bad
faith) applies whether amendment is sought before or after a Rule 12(b)
(6) dismissal, so that all plaintiffs have an equal opportunity to correct
their pleading deficiencies and thereby to enable their claims to be tested
on the merits. A related question, also central to the decision below and
also a subject of a circuit split, is how to measure a plaintiff’s “delay” in
amending a complaint. The First, Third, and Eighth Circuits hold that a
district court should, measure delay from the filing of a motion to
dismiss, which puts the plaintiff on notice only that her complaint might
be deficient. This approach is problematic because it forces a plaintiff to
seek amendment before knowing whether the motion will be granted —
that is, to assume that the motion will be granted and to spend the
additional resources to develop an amended complaint that will not be
necessary if the motion is denied. The better rule, applied by the Second,
Sixth, and Seventh Circuits, is that delay in amending should be
23

measured from the event that necessitates the amendment — the
granting of the motion to dismiss.”
The courts of appeals are so broadly divided about what standard governs the district
court’s discretion to grant or deny reconsideration in civil cases; and in this case, the
United States Court of Appeals for the District of Columbia has entered a decision in so
much conflict with the decision of another United States court of appeals on the same
important matter; or has so far departed from the accepted and usual course of judicial
proceedings, or sanctioned such a departure by the district court, as to call for an exercise
of this Court’s supervisory power. This Court should grant certiorari to resolve both of
these conflicts among the courts of appeals and ensure that amendment standards are
uniform.
This Court should vote to hear Baptichon. Most importantly, if this Court reconsiders 205031 and grants the petitioner's petition, this Court will negate the appearance of
selection and deselection based upon the clout of the litigants (i.e., the clout of the United
States Government, here the defendants, as compared to the lack of clout of a simple
United States citizen, here the petitioner). The granting of the Baptichon's Petition for
Certiorari will also go a long way to quelling the belief held by the plaintiff-appellant that
Baptichon 20-5031 was denied to save the Washington, D.C. power elites from
embarrassment by holding that the complaint is frivolous. By granting this motion for
rehearing and granting petitioner's 20-5031 Petition, this Court will demonstrate
convincingly that the only place where all litigants can appear with some semblance of
equality is the United States Supreme Court.
It appears that at best, when a competing party is the United States Government, there is
an automatic clout in the Courtroom that influences judges to rule against the (weaker)
24

party whose case is up for consideration for certiorari in the United States Supreme Court.
This gives the unmistakable appearance that even the legal system is rigged against those
without substantial clout to steer results in a direction that is favorable to that particular
interest.
If this Court grants the relief requested, it will restore confidence in the injured-in fact
petitioner that the United States Supreme Court is the one deliberative body whose
incorruptibility is inviolate. Because right now it appears to many that the pathway to the
United States Supreme Court might be enhanced by the people you know and the strings
you can pull at the lower courts and other places, rather than the intrinsic value of the
case at hand and the applicability of the issues.
CONCLUSION
This Court should follow its decision in Boag v.MacDougall 454 U.S. 364 (1982), and
Denton v Hernandez. 504 U.S. 25 (1992), which held respectively that the court of appeals'
ground for dismissing the complaint was erroneous as a matter of law and that federal
courts must construe unartful pleading liberally in pro se actions, citing Haines v. Kerner.
404 U.S. 519, 92 S. Ct. 595, 30 L.Ed.2d 652 (1972), that so construed, the complaint here
states a cause of action, and that the court of appeals incorrectly limited the power
granted the courts to dismiss a frivolous case under § 1915(d). Therefore this Court should
grant the petition for certiorari, reverse the judgement of the court of appeals and remand
for application of the proper standard and for further proceeding consistent with its
opinions.
Date: August 20, 2020'
County of Nassau
New York

^Respe^tfullwsybpihtejh?
Jean Dufojrt Baptichon
Petitioner Pro Se
25

